                                                             ADVISORY




RECOVERY OVERSIGHT ADVISORY
Bureau of Indian Affairs Architect-Engineer Multiple Award
Indefinite-Delivery Contract CBM00070015




Report No.: RO-J-BIA-127-2010                                February 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                                      FEB 03 2011

Memorandum

To :           Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:          Robert A.  KnOX '~./'-- ~
               Assistant Inspe~cfe~:r:l      ~cbvery Oversight
Subject:       Recovery Oversight Advisory - Bureau of Indian Affairs Architect-Engineer
               Multiple Award Indefinite-Delivery Contract CBM00070015
               Report No. RO-J-BIA-127-2010

       This advisory, regarding the issuance, fair opportunity, and cost of delivery orders under
Bureau ofIndian Affairs (BIA) Architect-Engineer Multiple Award Indefinite-Delivery Contract
(IDC) CBM000700 15 by the BIA Eastern Regional Supervisory Contract Specialist, is part of
our ongoing effort to oversee and ensure the accountability of funding appropriated to the U.S.
Department of the Interior (DOl) in the American Recovery and Reinvestment Act of2009
(ARRA). We make a number of recommendations intended to ensure compliance with the
Department' s policy and OMB guidance.

Background

         On May 1, 2007, through a Multiple Award IDC vehicle, the BIA Albuquerque
Acquisition Office awarded IDC CBM000700 15 to PAl of Kentucky (P AIK) for road and bridge
location, surveying, mapping, soil investigation, project scoping report, and road design, as well
as bridge design and foundation investigation, for the 12 BIA National Regional Offices. The
initial IDC period began May 1, 2007, and continued through April 30, 2008, with four I-year
option periods. To date, the IDC has been modified seven times, with the last modification
extending the period of performance through April 30, 2011.

Findings

        The BIA Eastern Regional Supervisory Contract Specialist issued four Delivery Orders
(D/O) to PAIK. Two of the DIOs were funded by the Recovery Act-RA00151 0038 ($125 ,594)
and RA00150040 ($142,185)-but each of the DIOs was issued without authority. IDC Section
e.6.2. states that the Administrative Contracting Officer shall issue all DIOs, and Section GA.a.
identifies the Administrative Contracting Officer as the contracting specialist in the Southwest
Regional Office. Including modifications 0004 and 0005 , only the contracting specialists in the
Southwest, Pacific, and Eastern Oklahoma Regional Offices may issue DIOs against the IDe.
Nowhere in this contract is authority extended to the Eastern Region.




                               Recovery Oversight Office I Washington. DC
        In addition, we determined that the D/Os, which totaled $267,779, were issued to PAIK
without affording other IDC holders a fair opportunity. The Supervisory Contract Specialist was
interviewed and stated that once vendors are awarded IDCs, there is no requirement to compete
the issuance of D/Os amongst the IDC holders. We disagree, and note that in accordance with
FAR 16.505(b)(1)(i), “the contracting officer must provide each awardee a fair opportunity to be
considered for each order exceeding $3,000 issued under multiple delivery-order contracts or
multiple task-order contracts…”

        Finally, the Supervisory Contract Specialist stated that he did not negotiate the task order
or require an Independent Government Cost Estimate (IGCE) to determine that the price was fair
and reasonable. He explained that price negotiations were not conducted because the hourly rates
were established by the IDC. Based on a review of the IDC, the Supervisory Contract Specialist
was partially correct. Section B.1.c. states that “the Labor Rates, computer-aided design and
drafting per hour costs and/or civil engineering automated library per hour costs shall not be a
point of negotiation on individual Delivery Orders.” However, section B.1.c. further states that
“the only portion of the Delivery Order(s) that are to be negotiated shall be specific labor mix,
total labor hours required to accomplish the Delivery Order, any travel costs and materials costs
as appropriate.” In addition, Section H.6. stipulates that “the contract price for production and
delivery, designs, and specifications shall not exceed 6 percent of the [IGCE] or Government
Programmed Funding whichever is less for construction of the public works or utilities.”
Therefore, the Supervisory Contract Specialist should have negotiated specific labor mixes, total
labor hours required to accomplish the Delivery Order, and any travel costs and materials costs
as appropriate.

Recommendations

We recommend BIA:

   1. Conduct training for contracting professionals on proper use of IDCs. Only Contracting
      Officers/Specialists granted authority in the contract may issue delivery orders and
      obligate U.S. Government funds.

   2. Conduct training for contracting professionals to ensure they understand their
      responsibilities to obtain a fair and reasonable price by negotiating the appropriate labor
      mix and labor hours required for full contract performance.

   3. Ensure that a reconciliation of all delivery orders issued under IDC CBM00070015 is
      conducted and reported to the Administrative Contracting Officer in the BIA Southwest
      Regional Office. Evaluate if any currently awarded D/Os were awarded without
      authority, and determine appropriate action, such as ratification and/or termination for
      convenience.




                                                                                                    2
         Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions BIA will implement to meet our recommendations, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation. We will post this
advisory on our Web site (www.doioig.gov/recovery/) and Recovery.gov. Information contained
in this advisory may also be included in our semiannual reports to Congress. We performed our
work in accordance with the applicable Quality Standards adopted by the Council of the
Inspectors General on Integrity and Efficiency. Please contact me if you have any questions.

cc:    Deputy Secretary, U.S. Department of the Interior
       Director, Office of Executive Secretariat and Regulatory Affairs
       Assistant Secretary for Policy, Management and Budget
       Director, Office of Acquisition and Property Management
       Acting Director, Office of Financial Management
       Assistant Secretary - Indian Affairs
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Audit Liaison, Indian Affairs
       Recovery Coordinator, Assistant Secretary, Indian Affairs




                                                                                                  3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
